F5) "T

\

No.

<€' .

r }

> oJ'

■J

Supreme Court, U.S
FILED

2021
OFFICE OF THE Cl FRk’

,/

IN THE
SUPREME COURT OF THE UNITED STATES

TOYE

TUTIS

— PETITIONER

(Your Name)
vs.
UNITED STATES OF AMERICA — RESPONDENT(S)
ON PETITION FOR A WRIT OF CERTIORARI TO

________ "THIRD CIRCUIT COURT OF APPEALS_________ (NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

TOYE TUTIS

#67059-050

(Your Name)
FCI - Gilmer
P.0. Box 6000
(Address)
Glenville, WV

26351

(City, State, Zip Code)
N/A
(Phone Number)

Received
MS / 7 2021
^S^co%^sk

QUESTION(S) PRESENTED

WHETHER EMPLOYMENT OF A "CELL-SITE SIMULATOR", IN
ORDER TO DETERMINE IF THE PETITIONER POSSESSED ANOTHER
CELLPHONE, OR CELLPHONES, CONSTITUTED AN INFRINGEMENT
OF HIS FOURTH AMENDMENT ENTITLEMENT TO PRIVACY WHEN
THE WIRETAP ORDER DID NOT AUTHORIZED ITS USE?
WHETHER AN INTEGRATED PLEA AGREEMENT, WHICH DEPARTS
FROM PRIOR ORAL AGREEMENTS ON AN IMPORTANT ISSUE, AND
WITHOUT NOTIFY THE DEFENDANT OF THE DELETED PROVISION,
RENDEREDCA GUILTY PLEA THA WAS MADE IN RELIANCE-.ON THE
PROSECUTOR'S PRIOR ORAL REPRESENTATIONS, NULL AND VOID
BECAUSE THE PLEA WAS NOT MADE VOLUNTARILY, KNOWINGLY,
AND INTELLIGENTLY?

*

LIST OF PARTIES

Be ] All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES

1*

i
/

,-c

TABLE OF CONTENTS

OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

4

REASONS FOR GRANTING THE WRIT

10

CONCLUSION

19

INDEX TO APPENDICES

APPENDIX A Opinion from the Third Circuit Court of Appeals
APPENDIX B Order of May 13, 2021, denying petition for rehearing
APPENDIX C
APPENDIX D
APPENDIX E
APPENDIX F

f

s

f

IN THE
«

SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[ X| For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix "A"
the petition and is

to

[X| reported at 845 FpH.Appy. 19 9 ( vh r.-i t-. ?rm )
5 or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ 3 is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix____ to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the _
appears at Appendix

court
to the petition and is

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ 3 is unpublished.
1.

A

JURISDICTION
[yl For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was February 21, 2021
[ ] No petition for rehearing was timely filed in my case.
Cxi A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: May 13. 2021
, and a copy of the
order denying rehearing appears at Appendix _','B"
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix ______
[ ] A timely petition for rehearing was thereafter denied on the following date:
---------------------------- -----, and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).
-r'

2

Ck

f

/
f

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

O'
FOURTH, FIFTH AND SIXTH AMENDMENTS TO THE UNITED STATES
CONSTITUTION
WIRETAP STATUTE (18 U.S.C § 2518)

3

• 9

■___ ,

'■

STATEMENT OF THE CASE
A detective employed by the county prosecutor's office
applied for a wiretap order from a state judge for the State
of New Jersey. The application was approved. The wiretap was
limited to a telephone that was used by one Jewell Tutis, a
brother of petitioner Toye Tutis. Subsequently, the detective
recorded a telephone call between Toye Tutis and his brother,
Jewell Tutis.

The two brothers discussed the subject of

fraudulent driverslicenses. The detective made a subjective i
interpretation that the purpose of obtaining fraudulent docu­
ments was to further their drug conspiracy. That conclusion
was reached by the detective because he had, previously, been
in contact with someone who made false allegations about the
petitioner - Toye Tutis. The unnamed informant falsely made
an uncorroborated allegation that Toye Tutis offered to sell
him controlled substances. Despite fitting the foregoing in­
formant with recording devices, no illegal drug transactions,
or discussions concerning controlled substances

were recorded

between the informant and the petitioner - Toye Tutis. How­
ever, drug transactions were recorded between the informant
and Jewell Tutis, the petitioner's brother.
Following the recorded telephone conversation between
Toye Tutis and Jewell Tutis, the detective applied for.a
second wiretap order from the state judge. The detective re-

4

UOiJ

0

quested permission to record conversations on the telephone
of the petitioner - Toye Tutis. In the detective's aforesaid
wiretap application, it was falsely asserted that the infor­
mant identified Toye Tutis as being "Santana", with whom he
had, allegedly, spoken to about selling controlled substances.
Later, it was revealed that "Santana" was, actually, Jewell
Tutis, and not Toye Tutis. This mistake occurred because no
independent investigation was conducted by the detective be­
fore seeking a wiretap order.for the telephone used by Toye
Tutis. In fact, the record shows that no effort was made by
the detective, or other officers, to demonstrate that the in­
formant could identify Toye Tutis as someone with whom he
was acquainted, or had previously associated in any manner.
It would have been a simple matter for the informant to stage
a meeting with Toye Tutis, and engage in some conversation
establishing that they had previously discussed the subject
of possible drug deals. However, the detective elected to by­
pass normal investigative techniques. Instead of providing
facts in support of his application for a wiretap on the
telephone of Toye Tutis, the detective submitted only surmise,
speculation, and subjective beliefs that a wiretap order will
produce evidence of unlawful drug transactions occurring be-

5

#

;

tween Toye Tutis, and unknown others. A state judge simply
"rubber stamped" the detective's wiretap application.
When the wiretap of the petitioner's telephone failed to
produce the desired results, the detective contacted federal
agents about employing a new device to determine whether the
petitioner was using other cellphones as a means.of committing
drug related crimes. The new device was a "Cell Site Simula­
tor", also known as a "Stingray". Its purpose was to falsely
send radio signals into the petitioner's residence, which sig­
nals would activate any and all cellphones physically located
in the petitioner's residence. Once activated, the cellphones
would then reveal their respective number, thereby allowing
the detective to intercept any and all conversations being
engaged in by Toye Tutis, or anyone else using the cellphone
or cellphones. That is what occurred. The detective, with
assistance from federal agents, employed a Cell Site Simulator
("Stingray") to obtain the numbers of other cellphones that
were located in the residence of Toye Tutis. Based on the sub­
sequent interception of telephone calls between Toye Tutis,
and others, a federal indictment was returned against him.
Following arraignment, defense counsel filed a motion to
suppress the telephone conversations recorded between Toye

6

m
;

Tutis, and others, in which law enforcement authorities sub­
jectively formed a belief that unlawful drug transactions
were discussed.or planned. In addition, the motion included
a challenge to the employment of the "Cell-Site Simulator"
("Stingray") in order to penetrate the walls of petitioner's
private residence and obtain electronic information from the
other cellphones located in the residence. Both of those
motions were denied.
Failing to obtain a favorable ruling on the suppression
motions, defense counsel for Toye Tutis engaged in negoti­
ations with federal prosecutors about a possible plea deal.
Since the petitioner's spouse had been charged with money
laundering conspiracy in a superseding indictment, Toye
Tutis insisted that any plea agreement include his spouse,
since she^was not involved, whatsoever, in the alleged con­
trolled substance conspiracy offense, or his money laundering
conspiracy charge.
The aforesaid plea negotiations resulted in federal
prosecutors tendering a proposed plea agreement to defense
counsel. It included a provision protecting petitioner's
spouse from a lengthy term of imprisonment. In addition, the
proposed agreement included a clause preserving petitioner's

7

0

!

right to appeal from the denial of his suppression motions.
Following an exchange of telephone calls and e-mails, Toye
Tutis signed a second proposed plea agreement. Defense
counsel represented to Toye Tutis that the plea agreement
was a "package deal", which included his spouse (protecting
her from a lengthy term of imprisonment). Defense counsel
further assured Toye Tutis that the Fourth Amendment claim
was preserved for appeal.
Following entry of a guilty plea, Toye Tutis discovered
that his attorney had misrepresented the contents of the
Plea Agreement. It did not include, or protect, his spouse.
Thus, there was no "package deal", as promised by defense
counsel and federal prosecutors.? Consequently, this forced
petitioner's spouse to engage in her own plea negotiations.
That resulted in the imposition of a lengthy term of im­
prisonment for her when she entered a guilty plea to the
money laundering conspiracy charge.
Upon discovering the error, defense counsel filed a
motion seeking to withdraw petitioner's guilty plea. The
court granted a hearing on the motion in which defense
counsel candidly admitted a failure to read the second pro­
posed plea agreement prior to advising Toye Tttitis to sign

8

!
0

the agreement. However, the district court ruled against the
petitioner's motion by concluding that he did not believe
defense counsel's testimony.
An appeal was timely taken by Toye Tutis in which the
both the wiretap orders, and the ineffectiveness of defense
counsel, were litigated. The appeals court determined that
the employment of a "Cell-Site Simulator" was not unlawful
because the wiretap order could be interpreted as authorizing
its use. Likewise, petitioner's claim of ineffectiveness of
his trial counsel was denied because of the credibility
decision made by the district judge. However, Judge McKee dis­
sented*; He would have granted the suppression motion because
the detective's application for a wiretap failed to state suf­
ficient facts demonstrating probable cause existed for the
wiretap order.

9

/

REASONS FOR GRANTING THE PETITION
(a) WHETHER EMPLOYMENT OF A "CELL-SITE SIMULATOR", IN
ORDER TO DETERMINE IF THE PETITIONER POSSESSED ANOTHER
CELLPHONE, OR CELLPHONES, CONSTITUTED AN INFRINGEMENT
OF HIS FOURTH AMENDMENT ENTITLEMENT TO PRIVACY WHEN
THE WIRETAP ORDER DID NOT AUTHORIZE ITS USE?
Although the Supreme Court has ruled on the validity
of installing a GPS on a suspect's motor vehicle, without
prior judicial approval, Carpenter v. United States, 138
S.Ct. 2206 (2018), there has been no ruling on the legality
of using a "Cell-Site Simulator" to obtain confidential in­
formation about a citizen's location, movements, and if he
possesses:or uses a cellphone, or a number of cellphones.
The Fourth Amendment protects not only property inter­
ests but certain expectations of privacy as well. Katz v.
United States, 389 U.S. 347, 351 (1967). When a citizen
"seeks to preserve something as private," and his expec­
tation of privacy is "one that society is prepared to
recognize as reasonable," official intrusion into that
sphere generally qualifies as a search and requires a war­
rant supported by probable cause. Smith v. Maryland, 442
U.S. 735, 740 (1972). See also, Carroll v. United States,
267 U.S. 132, 149 (1925); and Kyllo v. United States, 533
U.S. 27 (2001).
The Supreme Court has already that individuals have a
reasonable expectation of privacy in the whole of their

10

I

physical movements. Riley v. California, 573 U.S. _____
(2014)(allowing government access to cell-site recordswhich "hold for many Americans the 'privacies of life,

f II

contravenes that expectation). In Kyllo, supra, the
Court adopted, as part of a rule, that it "must take
account of more sophisticated systems that are already
in use or in development". _Id. 533 UsS., at 36.
In Carpenter, supra, the Court rejected an attempt
by the Government to bypass the Fourth Amendment's require­
ments by contending that "third-party doctrine" permits
agents to acquire cell-site records without prior judic­
ial approval. That doctrine partly stemed from the notion
that an individual has a reduced expectation of privacy
in information knowingly shared with another. However, the
Court found that the Government was merely mechanically •
applying the third-party doctrine without appreciating the
lack of comparable limitations on the revealing nature of
the information sought. It further found that cellphone
location information is not truly "shared", as the term is
normally understood. First, cellphones and the services
tey provide are "such a pervasive and insistent part of
daily life" that carrying one is indispensable to partici"s.

11

/

pation in modern society. Ici. (quoting Riley, 573 U.S., at
____ ,134 S.Ct. 2473). Second, a cellphone logs a cell-site
record by dint of its operation, without any affirmative
act on the user's part beyond powering up. Id.
Thus, Government officials are not allowed to obtain
cellphone information which an individual does not "know­
ingly" reveal, unless prior judicial approval is obtained.
Instantly, petitioner Toye Tutis, was not shown to have re­
vealed to anyone whether he possessed a cellphone, or its
number. State officers, acting without prior judicial
approval, invaded the privacy of petitioner's residence by
sending electronic signals through its exterior walls, that
tricked whatever cellphones which were physically present,
therein, to activate and send a signal revealing their
respective identity. The officers then utilized that infor­
mation in order to subsequently track Toye Tutis's movements
and determine the identity of whatever cellphone he may have
elected to use for private conversations.
Although the lower courts found that the detective who
applied for a state wiretap order failed to include orialert
the state judge of his intention to utilize a cell-site sim­
ulator to discover whether Toye Tutis was using other cell
. '\

12

;

phones, the lower courts determined that the wiretap order
permitted officers to do so. That was patently incorrect be­
cause the wiretap order makes no reference, whatsoever, to a
"cell-site simulator", or "Stingray". This was a maverich
operation by the county detective, who totally disregarded
wiretap rules and statutes. Significantly, Judge McKee dis­
sented from the Third Circuit's aforesaid ruling: "Judge
McKee would hold that the affidavit in support of the Sep­
tember 26, 2014 roving wiretap order lacked probable cause
and that the evidence derived from that wiretap should there­
fore be suppressed as the 'fruit of the poisonous tree.

f II

United States v. Tutis, Nos. 19-2106 and 19-2380, 845 Fed.
Appx. 122 (3rd Cir.2021).
"The Fourth Amendment requires that a warrant 'particu­
larly describe the place to be searched, and the persons or
things to be seized.

I II

United States v. Scurry, 821 F.3d 1,

15 (D.C.Cir.2016)(quoting United States v. Johnson, 437 F.3d
69, 73 (D.C.Cir.2006)).

II f

In the wiretap context,' the

Fourth Amendment's particularity requirement is

satisfied

by identification of the telephone line to be tapped and the
particular conversations to be seized.'" ^d.(quoting United
States v. Donovan, 429 U.S. 413, 427 n.15 (1977)). "Surely
a Title III wiretap application or order could not satisfy

13

#

the Fourth Amendment's particularity requirement if it
failed to identify the individual phone to be tapped." Id.
"[Wjiretaps on cell phones [are not to be treated] differently
from wiretaps on land-line phones." ^d. Thus, in Scurry,
supra, "each application and order specified the telephone
number of the targeted cell phone, a serial number identi­
fying the physical device associated with the target phone
number, the identity of the service provider, and the name and
address of the subscriber." Id. Instantly, the state's wiretap
order failed to include the foregoing information, as required
by 18 U.S.C. § 2518(11). Id., at 16.
The affidavit submitted by the detective investigating
the petitioner's suspected activity failed to state probable
cause. The affidavit merely stated that there was probable
cause to believe that "Toye Tutis frequently changes his cell
phone number as part of a deliberate effort to thwart detec­
tion by law enforcement . . . , and that roving authorization
is needed to intercept Toye Tutis' communications from the
Target Cell phone, and other wireless telephone numbers used
by Toye Tutis . .

." (Application of Detective Dorn} ., at fl 11).

The state judge then simply rubber stamped the detective's
application for a wiretap order. Thereawas no showing, other

14

than the detective's suspicions, that Toye Tutis even engaged
in the act of changing his cell phone. The affidavit always
referred to a single cell phone number (424) 646-1761, and
cited to no evidence that Toye Tutis had changed cell .phones
even once. Therefore, the allegation was without any factual
support, and most likely intentionally false. Thus, the sub­
sequent employment of a "cell-site simulator" was lacking in
any support or basis (even if the wiretap had authorized its
use by the detective).
An affidavit based upon "mere affirmation of suspicion
and belief without any statement of adequate supporting facts"
is insufficient. Aguilar v. Texas, 378 U.S. 108 (1964). "The
inferences from the facts which lead to the complaint 'must
be drawn by a neutral and detached magistrate instead of being
judged by the officer engaged in the often competitive enter­
prise of ferreting out crime.

f If

States, 333 U.S. 10, 14 (1942)).

15

ed, (quoting Johnson v. United

A*

(b) WHETHER AN INTEGRATED PLEA AGREEMENT, WHICH DEPARTS
FROM PRIOR ORAL AGREEMENTS ON AN IMPORTANT ISSUE, AND
WITHOUT NOTIFYING THE DEFENDANT OF THE DELETED PROVISION,
RENDERED A GUILTY PLEA THAT WAS MADE IN RELIANCE ON THE
PROSECUTOR'S PRIOR ORAL REPRESENTATIONS, NULL AND VOID
BECAUSE THE PLEA WAS NOT MADE VOLUNTARILY, KNOWINGLY, AND
INTELLIGENTLY?
During an evidentiary hearing granted by the district
court on petitioner's motion to withdraw his guilty plea,
his defense attorney took the witness stand and candidly
admitted torfalsely representing to Toye Tutis that the
proposed Plea Agreement was a "package" deal, which in­
cluded his spouse and co-defendant, Jaxmine Vega. Defense
counsel testified to not having read or reviewed the Plea
Agreement prior to advising Toye Tutis of its terms and
conditions. Toye Tutis relied on defense counsel's advice
since he was untrained in the law. However, the district
court found defense counsel not to have been a credible
witness, and denied the motion.
Numerous judicial decision have found similar conduct
by a defense attorney to constitute ineffective assistance
of counsel, contrary to the Sixth Amendment. "The fact that
a defendant enters a plea of guilty and states at the time ;
of the plea that the pleaiis being given freely and volun­
tarily does not necessarily preclude that defendant from
"\

16

4«

subsequently challenging the voluntariness of the plea."
Martin v. Kemp, 760 F.2d 1244, 1247 (11th Cir.1985). A
defense attorney's representations fell below an objective
standard of reasonableness by representing to petitioner
that the court had agreed to a later sentence reduction,
in Betancourt v. Willis, 814 F.2d 1546 (11th Cir.1987).
"An attorney's ignorance of a point of law that is
fundamental to his case, combined with his failure to per­
form basic research on that point is a quinessential example
of unreasonable performance." Hinton v. Alabama, 571 U.S.
263, 274 (2014). Just as an attorney's failure to raise a
"plainly meritorious objection could constitute deficient
performance, if proven", the facts in this proceeding were
clearly established when petitioner's defense counsel took
the witness stand and admitted to not having read the plea
agreement before advising Toye Tutis to sign it. BrockMiller v. Ohitedj States, 887 F.3d 298, 310.(7th Cir.2018).
This point was made in Houston v. Lockhart, 982 F.2d 1246
(8th Cir.1992), when the court ruled defense counsel’provided incompetent representation by failing to have his
oral agreement, with prosecutors, to allow admission into
evidence the defendant's favorable, polygraph results, re­
duced to writing "betrayed a startling ignorance of the law"

17

that was contrary to prevailing professional norms, and
constituted ineffective assistance of counsel. Id.
"The fact that a defendant enters a plea of guilty
and states at the time of the plea that the plea is being
given freely and voluntarily does not necessarily preclude
that defendant from subsequently challenging the voluntar­
iness of the plea." Martin v. Kemp,, 760 F.2d 1244, 1247 (
(11th Cir.1985). Ineffective assistance of counsel renders
a guilty plea involuntary. Betancourt v. Willis, 814 F.2d
1546, 1548 (11th Cir.l987)(citing Hill v. Lockhart, 474 U.S.
52 (1985), finding ineffective assistance of counsel when
attorney failed to memorialize sentence reduction agree­
ment in writing and neglected to enter it upon record).
See also United States v. Scurry, 987 F.3d 1144 (D.C.Cir.
2021)("It was the responsibility of the court and the gov­
ernment to take initiative to protect appellant's right to
counsel.")
Toye Tutis's plea was entered involuntarily and cannot
be considered to be a valid plea, rendering him actually
innocent, and entitled to plea anew. The lower courts'
ruling to the contrary is not supported by the record.
United States v. Samaniego, 532 Fed.Appx. 531, 535 (5th Cir.
2013).

18

*/

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted?

44

//

Date:

2021

19

Case: 19-2300

ocument: 100

Page: 1

Date F^^0a/26/2021

NOT PRECEDENTIAL
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

Nos. 19-2106 and 19-2380

UNITED STATES OF AMERICA, Appellant in 19-2380
v.

TO YE TUTIS, a/k/a "AHMAD",
a/k/a "MAHD", a/k/a "SANTANA", Appellant in 19-2106

On Appeal from the United States District Court
for the District of New Jersey
(D.C. No. l-14-cr-00699-001)
District Judge: Honorable Jerome B. Simandle

Argued on December 9, 2020
Before: MCKEE, PORTER and FISHER, Circuit Judges.
(Filed: February 11, 2021)
Stanley O. King [ARGUED]
King & King
231 South Broad Street
Woodbury, NJ 08096
Counsel for Appellant/Cross-Appellee
Craig Carpenito, United States Attorney
Sabrina G. Comizzoli, Assistant U.S. Attorney [ARGUED]
Mark E. Coyne
Office of United States Attorney
970 Broad Street, Room 700
Newark, NJ 07102
Counsel for Appellee/Cross-Appellant

i

!

icuc/su/bu

l
Case: 19-2300

Document: 100

Page: 2

Date Filed: 08/26/2021
$

OPINION*

FISHER, Circuit Judge.
Toye Tutis pleaded guilty to drug possession and distribution and money
laundering, but reserved his right to appeal two issues. He now exercises that right,
arguing that the District Court erred in denying his motions to suppress evidence and to
withdraw his guilty plea. We will affirm.
Tutis first argues that the District Court erred in denying his motions to suppress
evidence from a roving wiretap because the affidavit supporting the wiretap order did not
provide probable cause. He contends that the affidavit contained only barebones,

* This disposition is not an opinion of the full Court and pursuant to I.O.P. 5.7
does not constitute binding precedent.
1 The District Court had jurisdiction under 18 U.S.C. § 3231. We have jurisdiction
under 28 U.S.C. § 1291. For the denial of a motion to suppress evidence, we review
factual determinations for clear error and exercise plenary review over the application of
the law to those facts. United States v. Murray, 821 F. 3d 386, 390-91 (3d Cir. 2016). For
the denial of a motion to withdraw a guilty plea, we review for abuse of discretion.
United States v. Siddons, 660 F.3d 699, 703 (3d Cir. 2011).
2

"'■Fk

*

Case: 19-2380i^^Diocument: 100

Page: 3

Date Filed: 08/23/2021

conclusory, and deliberately misleading information.2
“When faced with a challenge to a .. . probable cause determination, a reviewing
court must remember that its role is limited”3 and afford “great deference”4 to the issuing
court’s findings. Thus, we “confine our review to .. . the affidavit” and look to see if
there was a ‘“substantial basis’ for finding probable cause” from its contents.5 The test is
met if, taking “a practical, common-sense” view of the facts, “there is a fair probability
that. .. evidence of a crime will be found in a particular place.”6 Additionally, a roving
wiretap, which allows the government to “interceptQ any and all identified telephones
used” by an individual,7 may be authorized if the affidavit includes evidence of that
person “thwarting interception” by law enforcement.8
Here, the District Court concluded that the affidavit contained sufficient facts to
establish probable cause for a roving wiretap. We agree. The affidavit indicated that
Tutis, his wife, and his brother were subjects of a long-term, state and federal

2 Tutis argues that the affidavit also fails because it does not meet New Jersey’s
stricter standard for roving wiretaps. See State v. Feliciano, 132 A.3d 1245, 1256 (N.J.
2016) (explaining that New Jersey’s standard is “stricter” than the federal one because
the government must “show the target has a ‘purpose ... to thwart interception’” (citing
N.J.S.A. 2A:156A-9(g)(2)(b))). We have, however, held that federal law governs
admissibility of communications intercepted by state agents in federal cases. United
States v. Williams, 124 F.3d 411, 426-28 (3d Cir. 1997).
3 United States v. Jones, 994 F.2d 1051, 1055 (3d Cir. 1993).
4 United States v. Hodge, 246 F.3d 301, 305 (3d Cir. 2001).
5 Jones, 994 F.2d at 1054, 1055.
6 Illinois v. Gates, 462 U.S. 213, 238 (1983).
7 United States v. Shannon, 766 F.3d 346, 349 n.4 (3d Cir. 2014).
8 18 U.S.C. § 2518(1 l)(b)(ii).
3

lc0c/90/S0

<f.

Case: 19-2300

Document: 100

Page: 4

Date Filed: 03/26/2021

!

investigation into multiple drug trafficking rings in New Jersey. It also recounted tips
from a confidential informant such as instructions, that were provided by Tutis, to use
code words to refer to specific drugs. The affidavit further described a subsequent
investigation based on those tips, including multiple controlled drug purchases, one of
which occurred in Tutis’s presence.9 The affidavit also averred that Tutis obtained
fraudulent state-issued identifications and used multiple phones to avoid interception by
the police. While it is true that the affidavit was later found to have included some false
information, the District Court found that it was not knowingly and deliberately
included.10 Even excluding the affidavit’s incorrect assertion that “Santana” was Tutis’s
nickname, the remaining facts in the affidavit still established probable cause.11
Next, Tutis argues that the District Court wrongly denied his motion to suppress
evidence obtained through a cell-site simulator, arguing it exceeded the warrant’s scope
because the affidavit referred to the simulator only as “equipment” instead of specifically
listing it. A search warrant complies with the Fourth Amendment when a neutral

9 See United States v. Stearn, 597 F.3d 540, 555 (3d Cir. 2010) (finding that “[a]
magistrate may issue a warrant relying primarily .. . upon the statements of a confidential
informant, so long as” there is “independent ‘[police] corroboration of details of an
informant’s tip’” (quoting Gates, 462 U.S. at 241) (alteration in original)).
10 See Franks v. Delaware, 438 U.S. 154, 171 (1978) (to obtain an evidentiary
hearing and ultimately exclude evidence obtained under a warrant issued based on a false
affidavit, “[t]here must be allegations of deliberate falsehood or of reckless disregard for
the truth”).
11 See United States v. Yusuf, 461 F.3d 374, 384 (3d Cir. 2006) (“When faced with
an affirmative misrepresentation, the court is required to excise the false statement from
the affidavit” and then assess probable cause.).
4

IZ0Z/90/S0

v.

-yJ

Case: 19-2380

Document: 100

Page: 5

Date Fi^^0a/26/2021

..y

magistrate finds in the affiant’s application: (1) “probable cause to believe that the
evidence sought will aid in a particular apprehension” and particular descriptions of “the
things to be seized, as well as the place to be searched.”12 The affidavit here did just that.
It described where the equipment would search and what it would obtain. Based on
physical surveillance of Tutis, the officers would use the equipment in “close proximity”
to Tutis “at different geographical locations. ”13 It would then obtain “Electronic Serial
Number (ESN), Mobile Telephone Number (MSISSDN), and International Mobile
Subscriber Identification (IMSI)” to “ascertain the [additional cellular telephone] facility
or facilities” utilized by Tutis.14 Indeed, it described the equipment in detail despite not
actually naming it, stating that it “is capable of retrieving wireless instrument
identification information” and would be used “to identify additional telephone facility
numbers being utilized by” Tutis.15 Therefore, the government’s search did not exceed
the scope of the warrant.
Furthermore, Tutis disputes the legitimacy of his own guilty plea, which he tried
to withdraw twice. A defendant may withdraw a plea if he can demonstrate a “fair and
just reason for .. . withdrawal,”16 which is a “substantial burden.” 17 In determining if a

12 Dalia v. United States, 441 U.S. 238, 255 (1979) (internal quotation marks
omitted).
13 Appellant’s Brief at 38.
14 Id. at 37.
15 Id. at 38-39.
16 Fed. R. Crim. P. 11(d)(2)(B).
17 Siddons, 660 F.3d at 703.
5

muc/yu/hu

■s

Case: 19-2380

document: 100

Page: 6

Date Filed: 08/26/2021

fair and just reason exists, “a district court must consider whether: (1) the defendant
asserts his innocence; (2) the defendant proffered strong reasons justifying the
withdrawal; and (3) the government would be prejudiced by the withdrawal. ”18
In his first motion, Tutis contended that his plea was involuntary because he only
agreed to it “based on pressure stemming from the packaged nature of his and his wife’s
plea offers. ”19 For the first factor of the test for withdrawing a plea, asserting innocence,
Tutis provided no facts to support his general statement that he continued to maintain his
innocence. A “[bjald assertion of innocence is ... insufficient to permit [a defendant] to
withdraw his guilty plea. ”20
For the second factor, Tutis argues there are strong reasons to withdraw his plea
because he did not know it was uncoupled from his wife’s plea deal. He contends that
initial plea negotiations involved a packaged deal and his attorney did not inform him
that, in the end, the pleas were not packaged. Additionally, Tutis argues that the District
Court failed to conduct the special colloquy that is required for packaged pleas.21
However, the District Court found that Tutis’s and his wife’s agreements had no

18 Id. (internal quotation marks and citations omitted).
19 Appellant’s Brief at 42-43.
20 United States v. Wilson, 429 F.3d 455, 458 (3d Cir. 2005).
21 We require that package deals be disclosed to the district court, and that the
district court conduct a special colloquy, because package deals “pose special risks,
particularly when a trial court is unaware that defendants’ pleas are tied together.” United
States v. Hodge, 412 F.3d 479, 489-90 (3d Cir. 2005).
6

LZ0Z/90/S0

Case: 19-2300
l

“coupling language,” were “entered independently,” and “were indeed uncoupled. ” 22 Our
review of the plea agreement confirms that the District Court did not err on this point.
Tutis also “affirm[ed] ... that his decision to accept the government’s plea bargain was
voluntary, entered of his own free will, and not coerced,” and the District Court
confirmed him to be “an intelligent, articulate, and self-directed person” who was
actively involved in negotiating plea offers.23
Nor does our decision change because Tutis’s lawyer subsequently testified that he
decided not to inform the District Court about the packaged deal in order “to inject.. .
error in the Court’s plea hearing so that it could serve as a basis for setting his plea
aside.”24 The District Court found the lawyer to be incredible, “uneasy” on the witness
stand, and trying hard “to keep his ‘story’ straight.”25 Additionally, Tutis’s wife’s
attorney testified that he knew that the pleas were ultimately uncoupled and that Tutis’s
lawyer should have known as well.
As for the final factor for withdrawing a plea, the District Court did not find the
Government would have been prejudiced by withdrawal. However, this third factor does
not outweigh the first two, which Tutis failed to demonstrate. Thus, the District Court did

22 JA 83-84. Moreover, even if Tutis’s plea deal had been packaged together with
his wife’s, a packaged-plea colloquy was never triggered because neither party informed
the District Court there was a package deal. See Hodge, 412 F.3d at 489-90.
23 JA 85, 102.
24 JA 109, 986.
25 JA 111.
7

u:oc/yo/bo

Case: 19-2300

ocument: 100

Page: 8

Date Filed: 08/26/2021
#

A
not abuse its discretion when it concluded that Tutis did not establish a fair and just
reason to withdraw his plea.
In his second motion to withdraw his plea, Tutis argued the plea was involuntary
due to ineffective assistance of counsel. Although we typically do not evaluate claims of
ineffective assistance of counsel on direct appeal, “a narrow exception to the rule .. .
exists ‘[w]here the record is sufficient to allow’” it.26 Because the District Court held a
hearing and “created an adequate record,” we will proceed.27 Accordingly, Tutis must
demonstrate that (1) “his attorney’s advice was under all the circumstances unreasonable
under prevailing professional norms; and (2)... he suffered sufficient prejudice from his
counsel’s errors.”28 He satisfies the latter by proving that “he would not have pleaded
guilty and would have insisted on going to trial” but for his attorney’s errors.29
As with his first motion to withdraw, Tutis maintains that he entered his plea
involuntarily because his counsel misled him into believing that he had a packaged deal
with his wife. The District Court, however, found that Tutis’s lawyer “attempted to
manufacture an ineffective assistance of counsel claim in a corrupt post-plea attempt to
help his former client”30 and that Tutis’s contention that he falsely admitted to his guilt

26 United States v. Jones, 336 F.3d 245, 254 (3d Cir. 2003) (quoting United States
v. Headley, 923 F.2d 1079, 1083 (3d Cir. 1991)).
27 Id.
28 Id. at 253-54 (internal quotation marks and citations omitted).
29 Hill v. Lockhart, 474 U.S. 52, 59 (1985).
30 JA 143.
8

I

LZ0Z/90/S0

Case: 19-2300
;

Document: 100

Page: 9

Date Filed; 03/26/2021

V

/

was unbelievable. There was no. indication that Tutis would have gone to trial if he had
not pleaded guilty, much less that he was prejudiced by his lawyer’s alleged errors.
Lastly, Tutis indicated his intention to file a pro se appellate brief, and in response,
the Government filed a cross-appeal. Apparently, the Government was attempting to
prepare for the possibility that Tutis would raise issues on appeal other than the ones
reserved in his plea agreement, and thus would violate the agreement. However, the
Government should not have cross-appealed.31 To put it succinctly, the Government was
not aggrieved by the judgment and is not permitted to appeal it.32 Therefore, we dismiss
the cross-appeal.

31 United States v. Erwin, 765 F.3d 219, 234-35 (3d Cir. 2014) (where defendant
violates terms of plea agreement by raising issues not reserved in the agreement, no
cross-appeal is permitted or needed and this Court has the power to order appropriate
remedies, including de novo resentencing).
32 Id. at 232.

9

IdUC/SU/bU

%
<L~

Case: 19-2300'

Document: 100

Page: 10

Date Filed: 08/26/2021
#

}

For these reasons, we will affirm.33

33 Judge McKee does not agree that the affidavit contained sufficient assertions to
establish probable cause for a roving wiretap. The assertions that would establish
probable cause in the affidavit all stem from the informant, but they establish probable
cause only if the informant is shown to be reliable under Gates. 462 U.S. at 239. Judge
McKee does not believe that the affidavit establishes that the informant is reliable as to
Tutis. In his view, the affiant merely asserts that the informant is reliable without
establishing what that conclusion is based upon. It alleges only that physical surveillance
has been conducted, primarily of the narcotics transactions conducted with the reliable
confidential informant. The language about the informant’s reliability is conclusory and
similar to the language that was held inadequate in Gates. There, the affidavit stated only
that the affiant “[has] received reliable information from a credible person ...” Gates,
462 U.S. at 239. Here, as in Gates, such an assertion is a “mere conclusory statement that
gives the magistrate virtually no basis at all for making a judgment regarding probable
cause. Id.
Judge McKee notes that the affiant does state that he had relied upon the informant
in a prior investigation of Tutis. However, that investigation was fruitless. In this
investigation, the informant’s tips about drug activity were corroborated only as to
Tutis’s brother, but not as to the appellant himself. Accordingly, Judge McKee would
hold that the affidavit in support of the September 26, 2014 roving wiretap order lacked
probable cause and that evidence derived from that wiretap should therefore be
suppressed as the “fruit of the poisonous tree.” Wong Sun. v. United States, 371 U.S. 471
(1963).
10

i^uc/au/bu

<1
Case:: HSK23SHD ^nnurmsmit: 94MI

(P&gje:H

OBtte iEltedt:
\
)

UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

Nos. 19-2106 and 19-2380

UNITED STATES OF AMERICA, Appellant in 19-2380
v.
TOYE TUTIS, a/k/a "AHMAD",
a/k/a "MAHD", a/k/a "SANTANA", Appellant in 19-2106

On Appeal from the United States District Court
for the District of New Jersey
(D.C. No. l-14-cr-00699-001)
District Judge: Honorable Jerome B. Simandle

Argued on December 9, 2020
Before: MCKEE, PORTER and FISHER, Circuit Judges.

JUDGMENT

This cause came on to be heard on the record from the United States District Court
for the District of New Jersey and was argued by counsel on December 9, 2020. On
consideration whereof, it is now hereby
ORDERED and ADJUDGED by this Court that the judgment of the District Court
entered May 6, 2019, be and the same is hereby AFFIRMED. All of the above in
accordance with the Opinion of this Court.
Costs shall not be taxed.

•4

.* \

Hr

IOJC/90/S0

i

• 4

t

(E&se::

"TtaoiiMffimtt: 94KH

Paa$@.:2

DMte (Rite#: ®&IP\7UIMCW

/

ATTEST:
s/ Patricia S. Dodszuweit
Clerk
Dated: 11 February 2021

2

♦

»

5x»

/

TRULINCS 67059050 - TUTIS, TOY^

Jnit: GIL-B-A

FROM: G, Jaz
TO:67059050
SUBJECT: From King
DATE: 05/13/2021 10:48:02 AM
UNITED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT______
Nos.. 19-2106 & 19-2380_____ _
UNITED STATES OF AMERICA v.
TOYE TUTIS, a/k/a "AHMAD",
a/k/a "MAHD", a/k/a "SANTANA", Appellant/Cross-Appellee______
(D.C. No. 1-14-cr-00699-001)______
Present: SMITH, Chief Judge, McKEE, AMBRO, CHAGARES, JORDAN, HARDIMAN, GREENAWAY, JR., KRAUSE,
RESTREPO, BIBAS, PORTER, MATEY, PHIPPS and FISHER1, Circuit Judges
SUR PETITION FOR REHEARING
WITH SUGGESTION FOR REHEARING EN BANC______
The petition for rehearing filed by Appellant/Cross-Appellee Toye Titus in the above-entitied case having been submitted to the
- ^judges who participated in the decision of this Court and to all the other available circuit judges of the circuit in regular active
' ^service; and no judge who concurred in the decision haying asked for rehearing, and a majority of the judges of the circuit in
T - regular service not having voted for rehearing, the petition for rehearing by the panel and the Court en banc, is denied.
*1 Judge Fisher's vote is limited to panel rehearing only.

This isn't good news but I just received it today.
Stan King

V

\

'

Case: 19-2106

ocument: 132

Page: 1

Date Filed: 05/12/2021

UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
Nos. 19-2106 & 19-2380
UNITED STATES OF AMERICA
v.

TOYE TUTIS, a/k/a "AHMAD",
a/k/a "MAHD", a/k/a "SANTANA", Appellant/Cross-Appellee
(D.C.No. l-14-cr-00699-001)
Present: SMITH, Chief Judge. McKEE, AMBRO, CHAGARES, JORDAN,
HARDIMAN, GREENAWAY, JR., KRAUSE, RESTREPO, BIBAS, PORTER,
MATEY, PHIPPS and FISHER1, Circuit Judges
SUR PETITION FOR REHEARING
WITH SUGGESTION FOR REHEARING EN BANC
The petition for rehearing filed by Appellant/Cross-Appellee Toye Titus in the
above-entitled case having been submitted to the judges who participated in the decision
of this Court and to all the other available circuit judges of the circuit in regular active
service, and no judge who concurred in the decision having asked for rehearing, and a
majority of the judges of the circuit in regular service not having voted for rehearing, the
petition for rehearing by the panel and the Court en banc, is denied.

i

Judge Fisher’s vote is limited to panel rehearing only.

Case: 19-2106

ocument: 132

Page: 2

Date Filed: 05/12/2021

BY THE COURT:
s/ D. Michael Fisher
Circuit Judge
Dated: 12 May 2021
AWI/CC:
SGC
MEC
SOK

